APPLICATION AND
SOLICITATION
DISCLOSURE
VISA ELITE

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

APR for Balance Transfers

APR for Cash Advances

Penalty APR and When it Applies

9.90% , 10.90%, 15.90% or 17.90%

, when you open
your account, based on your creditworthiness. This APR will vary with the
market based on the Prime Rate.
12.90% , 13.90% or 18.00% , when you open your account, based on
your creditworthiness. This APR will vary with the market based on the
Prime Rate.
12.90% , 13.90% or 18.00% , when you open your account, based on
your creditworthiness. This APR will vary with the market based on the
Prime Rate.
18.00%
This APR may be applied to your account if you:
- Make a late payment.
How Long Will the Penalty APR Apply? If your APRs are increased for
this reason, the Penalty APR will apply until you make six consecutive
minimum payments when due.

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
If you are charged interest, the charge will be no less than $0.50.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

$0.95
1.00% of each transaction in U.S. dollars
Up to $10.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Application of Penalty APR:
Your APR may be increased to the disclosed Penalty APR if you are 60 days late in making a payment.
Minimum Interest Charge:
The minimum interest charge will be charged on any dollar amount.
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 1, 2020.
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02006646-MXC10-P-4-072817 (MXC101-E)

This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Elite is a secured credit card. Credit extended under this credit card account is
secured by various personal property and money including, but not limited to: (a) any goods you purchase with
this account, (b) any shares you specifically pledge as collateral for this account on a separate Pledge of Shares,
(c) all shares you have in any individual or joint account with the Credit Union excluding shares in an Individual
Retirement Account or in any other account that would lose special tax treatment under state or federal law, and
(d) collateral securing other loans you have with the Credit Union excluding dwellings. Notwithstanding the
foregoing, you acknowledge and agree that during any periods when you are a covered borrower under the
Military Lending Act your credit card will be secured by any specific Pledge of Shares you grant us but will not be
secured by all shares you have in any individual or joint account with the Credit Union. For clarity, you will not be
deemed a covered borrower if: (i) you establish your credit card account when you are not a covered borrower;
or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$10.00 or the amount of the required minimum payment, whichever is less, if you are 16 or more days late in making a
payment.
Cash Advance Fee (Finance Charge):
$0.95.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$10.00.
Emergency Card Replacement Fee:
$20.00.
Pay-by-Phone Fee:
$10.00.
Rush Fee:
$20.00.
Statement Copy Fee:
$5.00.
Copy of Sales Draft Fee:
$2.00.
Original Sales Draft Fee:
$6.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02006646-MXC10-P-4-072817 (MXC101-E)

